<html>
<title> - NO ASSISTANCE FOR ASSAD ACT; IRAN HUMAN RIGHTS AND HOSTAGE-TAKING ACCOUNTABILITY ACT; STRONGLY CONDEMNING THE SLAVE AUCTIONS OF MIGRANTS AND REFUGEES IN LIBYA, AND FOR OTHER PURPOSES; AND RECOGNIZING AND SUPPORTING THE EFFORTS OF THE UNITED BID COMMITTEE TO BRING THE 2026 FEDERATION INTERNATIONALE DE FOOTBALL ASSOCIATION (FIFA) WORLD CUP COMPETITION TO CANADA, MEXICO, AND THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





   NO ASSISTANCE FOR ASSAD ACT; IRAN HUMAN RIGHTS AND HOSTAGE-TAKING 
ACCOUNTABILITY ACT; STRONGLY CONDEMNING THE SLAVE AUCTIONS OF MIGRANTS 
  AND REFUGEES IN LIBYA, AND FOR OTHER PURPOSES; AND RECOGNIZING AND 
 SUPPORTING THE EFFORTS OF THE UNITED BID COMMITTEE TO BRING THE 2026 
  FEDERATION INTERNATIONALE DE FOOTBALL ASSOCIATION (FIFA) WORLD CUP 
          COMPETITION TO CANADA, MEXICO, AND THE UNITED STATES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                 H.R. 4681, H.R. 4744, H. Res 644, and
                            H. Con. Res. 111

                               __________

                             MARCH 15, 2018

                               __________

                           Serial No. 115-113

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-364PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













































                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 4681, To limit assistance for areas of Syria controlled by 
  the Government of Syria or associated forces, and for other 
  purposes.......................................................     2
  Amendment in the nature of a substitute to H.R. 4681 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    14
      Amendment to the amendment in the nature of a substitute to 
        H.R. 4681 offered by the Honorable Edward R. Royce.......    25
H.R. 4744, To impose additional sanctions with respect to serious 
  human rights abuses of the Government of Iran, and for other 
  purposes.......................................................    26
  Amendment in the nature of a substitute to H.R. 4744 offered by 
    the Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    42
      Amendment to the amendment in the nature of a substitute to 
        H.R. 4744 offered by the Honorable David Cicilline, a 
        Representative in Congress from the State of Rhode Island    57
      Amendment to the amendment in the nature of a substitute to 
        H.R. 4744 offered by the Honorable Ted Poe, a 
        Representative in Congress from the State of Texas.......    58
H. Res. 644, Strongly condemning the slave auctions of migrants 
  and refugees in Libya, and for other purposes..................    60
  Amendment in the nature of a substitute to H. Res. 644 offered 
    by the Honorable Edward R. Royce.............................    65
H. Con. Res. 111, Recognizing and supporting the efforts of the 
  United Bid Committee to bring the 2026 Federation 
  Internationale de Football Association (FIFA) World Cup 
  competition to Canada, Mexico, and the United States...........    70

                                APPENDIX

Markup notice....................................................    92
Markup minutes...................................................    93
Markup summary...................................................    95
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    96
  
  
  
  
  
  
 
   NO ASSISTANCE FOR ASSAD ACT; IRAN HUMAN RIGHTS AND HOSTAGE-TAKING 
ACCOUNTABILITY ACT; STRONGLY CONDEMNING THE SLAVE AUCTIONS OF MIGRANTS 
  AND REFUGEES IN LIBYA, AND FOR OTHER PURPOSES; AND RECOGNIZING AND 
 SUPPORTING THE EFFORTS OF THE UNITED BID COMMITTEE TO BRING THE 2026 
  FEDERATION INTERNATIONALE DE FOOTBALL ASSOCIATION (FIFA) WORLD CUP 
          COMPETITION TO CANADA, MEXICO, AND THE UNITED STATES

                              ----------                              


                        THURSDAY, MARCH 15, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. We will 
ask all the members to take their seats at this time.
    Pursuant to notice, we meet today to markup four bipartisan 
measures and without objection all members may have 5 days to 
submit any statements or extraneous material on today's 
business.
    As members were notified yesterday, we intend to consider 
these measures today en bloc, and so without objection the 
following items previously provided to members and also in your 
packets will be considered en bloc and are considered as read.
    We will start with H.R. 4681, the No Assistance for Assad 
Act with Royce Amendment 94 in the nature of a substitute and 
Royce Amendment 99.; next is H.R. 4744, the Iran Human Rights 
and Hostage-Taking Accountability Act with McCaul Amendment 91 
in the nature of a substitute, Cicilline Amendment 129, and Poe 
Amendment 79; then House Resolution 644, strongly condemning 
the slave auctions of migrants and refugees in Libya, Royce 
Amendment 95 in the nature of a substitute to that; and the 
House Concurrent Resolution 111, supporting efforts to bring 
the 2026 FIFA World Cup competition to Canada, Mexico, and the 
United States.
    [The information referred to follows:] 
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    
    
    
    Chairman Royce.
    And I now recognize myself to speak on today's business. We 
begin by considering H.R. 4744. This is the Iran Human Rights 
and Hostage-Taking Accountability Act, and I want to thank 
Chairman McCaul and also Representative Deutch for authoring 
this important legislation.
    For years, the regime in Tehran has squashed all opposition 
in Iran with excruciatingly brutal tactics including torture in 
Evin Prison and in other prisons across Iran and including mass 
executions. Yet, very few Iranian Government officials have 
been designated for human rights violations. The head of the 
regime's judiciary was not designated specifically for human 
rights abuses until last December. This is the same Iranian 
regime that is holding American citizens, including one who was 
in very poor health, on sham charges in one of the largest 
ransom schemes ever devised.
    It is far past time that the regime face consequences for 
its attacks on Americans and attacks on Iranians alike. The 
legislation we are considering today does just that.
    Next, we consider H.R. 4681. This is the No Assistance for 
Assad Act. I thank Ranking Member Engel and Representative 
Kinzinger for their work on this important bill and it will 
help keep U.S. taxpayer money out of the hands of the murderous 
Assad regime and out of the hands of Assad's proxies.
    While the U.S. is, of course, sensitive to the humanitarian 
needs of Syrians living in devastated areas, and we remain, by 
the way, the single largest donor for emergency assistance, 
while we are concerned about all of that, we should not be 
responsible for rebuilding areas controlled by the Assad 
regime, controlled by Iran or Russia, Hezbollah, or Iranian-
backed militias.
    It would be unconscionable to give money and resources, 
which would likely be siphoned off by corrupt officials, to the 
Assad regime while the Syrian people continue to suffer 
chemical weapons attacks and rocket bombardment and continue to 
suffer starvation.
    So next, I want to thank Representative Karen Bass for 
introducing House Resolution 644 strongly condemning the slave 
auctions of migrants and refugees in Libya. Since the fall of 
Gaddafi in 2011, Libya has been rocked by chaos. Shamefully, 
the resulting power vacuum has led to the expansion of 
terrorist groups that are heavily involved in criminal 
activities, including human trafficking.
    There have been multiple disturbing reports of serious 
abuses of migrants and refugees in Libya treated as slaves 
including reports of slave auctions. This resolution condemns 
those horrific abuses.
    And finally, we have House Concurrent Resolution 111, 
supporting the efforts of the United States Committee to bring 
the 2026 World Cup competition to Canada, Mexico, and the 
United States.
    The U.S. has not hosted an FIFA World Cup event since 1994, 
when we hosted games throughout nine cities and drew a record 
attendance of 3.6 million--a record that remains unbroken 
today. Hosting in 2026 would bring billions of dollars to the 
U.S., and we already have the necessary infrastructure such as 
the stadiums and training facilities. This resolution rightly 
recognizes that we'd do a great job hosting this highly 
anticipated international event.
    So I now recognize the ranking member, Mr. Engel of New 
York, for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this markup. We have four good measures before us 
today. I am glad to support them all and I thank all our 
members on both sides always for their hard work.
    But before I get to these four items, I have to say, in my 
view, we need to consider additional sanctions against Russia 
for its ongoing attack on American democracy.
    The chairman and I worked together to get the big sanctions 
bill across the finish line last year and we want to see it 
implemented.
    So I hope we will soon consider another bill that I 
introduced with Mr. Connolly, the Secure Our Democracy Act, 
that would specifically sanction anyone who interferes with an 
American election from overseas.
    I think we need to do whatever it takes, and if the 
administration won't do it, it's up to us. And I want to thank 
you again, Mr. Chairman, for bringing forward the No Assistance 
for Assad Act, which I introduced at the end of last year. I am 
grateful for your support as a co-sponsor along with that of 
Mr. Kinzinger and Mr. Boyle.
    The Assad regime's brutal campaign of violence rages on. 
It's just horrific. It's a loss of innocent life. We saw it in 
Aleppo, in Madaya, and now in eastern Ghouta. People are 
transmitting their goodbyes to their loved ones as they live 
under intense bombardment.
    The regime is using chemical weapons again, children are 
suffocating, and silence from the international community. As 
we continue to work to find some way to end the bloodshed, we 
also need to start thinking about what will come down the road.
    This bill says that American assistance for reconstruction 
should be available in areas controlled by Assad only if the 
regime stops indiscriminate use of weapons and only if the 
regime ends attacks on civilians and civilian facilities.
    This bill says that money can only flow if the regime 
releases political prisoners, allows human rights organizations 
access to the prisons, and removes senior officials complicit 
in human rights abuses.
    There is a number of other benchmarks as well--moving 
toward free and fair elections and independent judiciary, 
minimizing reliance on Iran, allowing the safe return of 
refugees.
    These limitations won't affect locally-administered 
projects. They won't affect humanitarian assistance. Recovery 
in Syria will be a slow and painful process but we cannot allow 
those responsible for hundreds of thousands of murders to 
control American dollars meant to help the country rebuild.
    I am grateful for the bipartisan support this bill has 
already received and I ask all members to support moving it 
forward today.
    Let me thank next Mr. McCaul, the chairman of the Homeland 
Security Committee and one of our good members of this 
committee, and Mr. Deutch for offering their bill to expand 
sanctions on Iran as it relates to taking American citizens 
prisoner.
    We all know Iran's human rights record is just atrocious. 
Torture and brutal punishment are the norm. Iran as a record of 
extrajudicial killings and forced disappearances like the 1988 
massacre.
    Human rights advocates, political dissidents, and 
journalists are regular targets of the regime and, of course, 
Iran continues to detain American citizens, notably Siamak and 
Baquer Namazi and Xi Yue Wang.
    This bill would expand on existing human rights sanctions 
in a way that doesn't affect American obligations under the 
nuclear deal. So I am glad to support this bill.
    I am also grateful to Representative Bass for her 
resolution condemning the disgusting slave auctions taking 
place in Libya.
    Libya has become a transit hub for migrants moving north to 
Europe with as many as a million refugees and migrants, mostly 
from sub-Saharan Africa currently in the country.
    In the absence of effective government these vulnerable men 
and women have been brutally exploited as human trafficking 
victims sold at auction and forced to work for no pay.
    Can you imagine in 2018 this is still happening? This 
measure condemns this horrible practice and calls upon 
authorities in Libya to put a quick stop to this practice.
    And finally, I am glad to support Representative LaHood's 
concurrent resolution supporting the United Bid Committee's 
work to bring the 2026 FIFA World Cup to Canada, Mexico, and 
the United States.
    At a time when the administration has been trampling on our 
relations with our northern and southern neighbors I am glad 
that Congress continues to see the importance of these ties.
    Bringing the World Cup back to the United States would be a 
boon for host cities and allow us, along with our Canadian and 
Mexican neighbors, to set the standards on hosting this 
tournament, which will expand from 32 to 48 teams in 2026.
    I support this resolution along with the other measures we 
are considering today. I again thank all our members on both 
sides and I yield back.
    Thank you, Mr. Chairman.
    Chairman Royce. We go now to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and I appreciate 
your leadership on all of the issues today. I support all four 
of these amendments.
    I would like to just note about the Libya amendment, which 
I support, which you're proposing today. But let's just note 
that the United States had an agreement and we had set down a 
plan with Gaddafi when he was in power.
    And he was a brutal dictator but he was not permitting the 
radical Islamic activities that now plague the entire Middle 
East. We broke our word to Gaddafi. We broke our word to other 
parties who were part of that agreement.
    Had we not done so, yes, Libya would still be a 
dictatorship but wouldn't have radical Islamists selling young 
girls into slavery.
    And so with that said, when we intervene in order to 
cleanse an area of dictatorship as we did with Saddam Hussein 
which, again, turned out to be a catastrophe for the people 
there, we need to think twice before we get ourselves embroiled 
trying to get rid of a dictator because we don't know who that 
dictator will be replaced by.
    Although with that said, I strongly support this because we 
are condemning the sale of women into slavery by these radical 
Islamists there who now control large chunks of Libya.
    Of course, your No Assistance to Assad, your human rights--
especially the human rights provisions you have in 4744 when we 
are talking about the people of Iran who are struggling now for 
their own freedom and they are courageous people and they are 
being met with the utmost brutality, and this message will get 
to the mullahs in Iran and also, more importantly, it will go 
to the people themselves who are struggling there for freedom 
and we are on their side.
    Thank you very much. I support all of initiatives being 
proposed today.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    We go now to--I think Mr. Ted Deutch of Florida is next in 
the queue.
    Mr. Deutch. Thank you, Mr. Chairman.
    I'd like to express my support for all of the measures 
before us today. As the World Cup approaches, sadly without the 
participation of the United States, I support efforts to bring 
the World Cup to North America.
    I appreciate the efforts of Representative Bass to bring 
attention and condemnation to the shocking slave auctions of 
migrants and refugees in Libya and I am heartened to see us 
take up H.R. 4681, the No Assistance for Assad Act as we mark 
the seventh anniversary of the Syrian conflict.
    The Assad government is among the most corrupt, brutal, and 
oppressive regimes the world has ever seen. The destruction 
wrought by Assad's cluster munitions, his barrel bombs, his use 
of chemical weapons and indiscriminate targeting in addition to 
the damage caused by the counter ISIS fight with plague Syria 
for decades to come.
    Millions of innocent civilians are in need of humanitarian 
assistance. Even when the fighting ends, it will be years 
before we begin a real discussion about tangible 
reconstruction.
    But as we look toward that day, it's important to balance 
our hope of stability in Syria to allow for humanitarian 
improvements and refugee returns without providing assistance 
to the tyrannical regime and, by extension, to the Iranians' 
and Russian interests.
    This bill is reflective of our values on human rights, 
international law, and democracy and it will ensure that Assad 
does not benefit from post-conflict stabilization efforts.
    I thank Ranking Member Engel, Congressman Kinzinger, 
Chairman Royce, and Congressman Boyle for authoring this 
important legislation.
    Today, we also have before us H.R. 4474, the Iran Human 
Rights and Hostage-Taking Accountability Act. I am proud to 
have co-authored this bill with Congressman McCaul and I thank 
him for his support for all of those who have been affected by 
the Iranian regime's egregious disregard for the human rights 
of its own people and of American citizens.
    As members of this committee well know, my constituent, 
Robert Levinson, went missing in Iran on March 9, 2007. Bob is 
a husband to his wife of over 40 years, Christine. He is a 
father to his seven children. He's a grandfather who has never 
had the chance to meet five of his six grandchildren.
    Last week, the Levinson family was forced to mark the 
eleventh year without their husband, their father, and their 
grandfather. Bob's youngest son, Doug, is here today.
    Many of you heard from Doug last year when he testified in 
the Middle East Subcommittee alongside the son of Nizar Hakka 
and the son and brother of Baquer and Siamak Namazi--three 
others who have been unjustly detained by Iran.
    For the 8 years that I've served in Congress I have spoken 
out about Iran's past commitments to help locate and return 
Bob. In fact, in January 2016, President Obama, speaking from 
the White House, announced that Iran had agreed to deepen 
cooperation in Bob's case.
    But last week, a spokesman for the Iranian Foreign Ministry 
denied that Iran had ever committed to help. This is an 
outrageous lie and Iran must be publicly called out for this 
lie.
    I raise this to illustrate why this bill is so important. 
The Iranian regime has no regard for human rights or for 
international law. It systematically represses its own people 
using technology to sensor information, to track and monitor 
its citizens.
    It violently represses political dissent. It persecutes 
religious minorities like the Baha'is. It jails people without 
due process. It has one of the highest execution rates in the 
world and it takes Americans and other foreign nationals 
hostage.
    We can say they've been detained. We can say that they are 
imprisoned. But let's be clear, this is hostage taking. This 
bill has nothing to do with Iran's nuclear program. It has 
nothing to do with the JCPOA. We are not undermining the deal 
by acting today.
    We are simply making clear that American citizens will not 
be used as leverage or bargaining chips. We are making it 
abundantly clear that this Congress stands for human rights. We 
stand against brutal authoritarian regimes. We stand for the 
Americans who are being held in Iran.
    We cannot tolerate Iran's abuses and every responsible 
nation should join the United States in condemning these 
despicable practices.
    Mr. Chairman, Ranking Member Engel, I thank you for your 
support on this bill and for the support that this committee 
has provided to the Levinsons and to the families of all of 
those being held in Iran.
    I hope and pray that this is the last time that I have to 
tell Bob's story because it is well past time to bring Bob home 
to his family.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. We hope so as well, Mr. Deutch.
    We go now to Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman and Ranking Member 
Engel, for holding today's markup, including my bill to hold 
the Iranian regime accountable.
    I introduced the Iran Human Rights and Hostage-Taking 
Accountability Act with Mr. Deutch, who has just spoken on this 
very eloquently. I am grateful to have your support.
    The Iranian regime continues to perpetrate gross human 
rights abuses against its own people. They continue to suppress 
the country's voices for reform through censorship of the 
media. They continue to recklessly use the nation's resources 
to expand its regional influence through its support for 
terrorist organizations.
    They continue to engage in corrupt practices and they 
continue to illegally detain and imprison our citizens without 
just cause or reason.
    This is simply unacceptable.
    Mr. Chairman, this bill serves as a clear signal to the 
people of Iran that we support them in their quest for freedom. 
My bill shines a light on the regime's human rights violations 
and sanctions those who are complicit in such crimes.
    The same goes for Iranian officials guilty of corruption, 
censorship, and the diversion of goods intended for the Iranian 
people.
    Finally, my bill sanctions individuals complicit in taking 
Americans and other nations' citizens hostage and requires the 
President to work with our international partners to develop a 
strategy to put an end to this inhumane practice.
    We have five Americans currently detained in Iran. That's 
intolerable. We must do all we can and apply as much pressure 
on Iran as necessary to ensure their safe release and prevent 
future Americans from being held hostage by this brutal regime.
    I want to again thank the chairman, the ranking member, Mr. 
Deutch, for your leadership on this committee to hold Iran's 
officials accountable, and with that I yield back.
    Chairman Royce. Thank you, Mr. McCaul.
    We go to Congresswoman Karen Bass of California.
    Ms. Bass. Thank you, Chairman Royce and Ranking Member 
Engel.
    In November 2017, CNN broke a story about modern-day 
slavery in Libya with a grainy video that shows an auctioneer 
standing in front of a group of young men, shouting, ``Big 
strong boys for farm work--$400, $700, $800.''
    The video left people shocked and sparked protests outside 
of Libyan Embassies here in the U.S. and across Africa and 
Europe.
    In December 2016, the U.N. Office of High Commissioner for 
Human Rights reported that many migrants in Libya are forced to 
work for no pay on farms, as domestic workers, construction, 
and road-paving workers.
    And in April 2017, the International Organization for 
Migration gathered evidence and issued a warning about slave 
markets in Libya. While there were many warning signs from 
various international organizations that migrants, refugees, 
and asylum seekers were suffering abuse, it took actual video 
evidence for the world to pay attention.
    Libya has become a primary transit hub for migrants and 
refugees attempting to reach southern Europe by sea and the 
U.N. estimates that there are now between 700,000 and 1 million 
migrants and refugees in the country.
    How did we get here and what is the solution to the crisis? 
The fall of Muammar Gaddafi in which the U.S. participated, as 
my colleague on the other side of the aisle acknowledged, led 
to significant political turmoil and insecurity within Libya.
    Since then, there has been no effective government in place 
in the country. The internationally recognized government of 
national accord controls some parts of the country but other 
political actors control other parts and there are numerous 
ungoverned zones across that vast country.
    This resolution not only strongly condemns slave auctions 
and the exploitation of migrants and refugees as forced 
laborers in Libya, it also calls upon all parties to the 
conflict including parties to the Libyan political agreement to 
investigate and eradicate the auctions, hold those identified 
in investigation accountable in courts of law, manage the 
migration flows and migration detention centers in a humane 
manner, and investigate how funds earned through the transfer, 
sale, and exploitation of migrants are used, and the extent to 
which such profits are fueling and prolonging Libya's civil 
conflict.
    We are also calling upon the United Nations to investigate 
allegations of the slave trade and other forced labor in Libya 
and advocate that all parties to the conflict in Libya allow 
the U.N. High Commissioner for Human Rights to regularly 
monitor and publicly report on the situation of all refugees 
and migrants including those in detention centers.
    In addition to what is called for in the resolution, the 
bottom line, of course, is that slavery is a crime against 
humanity and we cannot sit idly by while people around the 
world are exploited.
    These auctions expose the interconnected and complex nature 
of this crisis and any solution to this problem will require a 
holistic and comprehensive strategy for Libya and the sending 
countries across Africa that promotes democratic governance and 
rule of law, human rights and creating economic opportunities.
    The United States must remain focused and continue to 
promote U.S. values around the world that include speaking out 
publicly when we see human rights abuses.
    But in order to do this, we also need a fully staffed and 
funded State Department and USAID so that we can remain focused 
on these issues.
    We need to join with the international community to address 
the reasons behind the migrant crisis--the instability of the 
countries where the migrants were fleeing from in the first 
place as well as the international community joining together 
to assist Libya in addressing this crisis.
    Thank you, and I yield back.
    Chairman Royce. Mr. Ted Poe of Texas.
    Mr. Poe. I thank the chairman.
    I am proud to support H.R. 4744, the Iranian Human Rights 
and Hostage-Taking Accountability Act, introduced by 
Representatives McCaul and Deutch. I thank them for that.
    Mr. Chairman, the mullahs in Tehran are among the world's 
worst human rights abusers. They almost take joy in hurting 
people of their own country.
    This year, we have witnessed their brutality again on 
display as they crushed political dissidence from their own 
people and they did it in a very violent and brutal way.
    International attention has faded, but the Iranian people 
are still in the streets demanding that their rights be 
protected.
    Whether it be economic opportunity, access to water, 
religious freedom, or gender equality, the United States should 
support these dissidents in Iran and Iranians throughout the 
world that are trying to have a regime change in their own 
country.
    In response to these dissidents, the regime has murdered 
dozens and locked up thousands, as it has done many times 
before, without any punishment from the outside world.
    To that end, I am introducing my amendment to H.R. 4744 to 
address the regime's past sins, sins that Iran has refused to 
admit or be held accountable for.
    Specifically, my amendment calls for investigations of past 
crimes such as the 1988 massacre where thousands of political 
prisoners were systematically murdered by the regime.
    Some estimates are over 30,000--30,000 were murdered in the 
streets in 1988. These barbaric mass executions by public 
hanging, firing squads, including of teenagers, pregnant women 
who refused to renounce their political affiliation including 
many from the MEK, today's leading Iranian dissident group.
    It's important to remember who exactly were the victims of 
this bloody massacre. Iranian security officials would ask 
detainees, ``What is your political affiliation?'' And those 
who said the MEK would be immediately placed on execution lists 
to meet their date with the hangman.
    Mr. Chairman, some of the friends of those that were killed 
in 1988 in this horrific massacre are here today with us.
    So horrific was the act that the deputy to Iran's rule at 
the time, Ayatollah Khomeini, called it ``the greatest crime 
committed during the Islamic Republic for which history will 
condemn us.''
    Well, today is the day of reckoning. It's taken 30 years to 
condemn Iran for the murder of 30,000 political dissidents, the 
MEK, and it's time that we adopt this amendment.
    My amendment urges our Government work with international 
partners, to investigate other major human rights abuses such 
as the dozens that were killed in 1999, 2009, and in 2017.
    In all cases, the families of those murdered by the regime 
were never told what happened to their loved ones' remains. 
This amendment demands pressure on the Iranian Government to 
disclose where the final resting place is of the missing so 
their families may have some peace.
    I want to thank Mr. McCaul and Mr. Engel and Mr. Deutch for 
this legislation. I also want to mention 644, the slave 
auctions in Libya.
    I want to reiterate that the United States needs to be very 
careful when it goes into a nation self-righteously, 
overthrowing the government, and walking away. That's exactly 
what happened in Libya.
    Now we have a failed state that is involved in human sex 
trafficking--slavery of migrants. Many of those coming from 
West Africa go to Libya hoping to get a better life in Europe 
and they end up on the slave trade block.
    So I want to commend Representative Bass for this 
resolution. Human trafficking--modern-day slavery--is taking 
place in many places in the world. But it's taking place at its 
worst in Libya.
    It's estimated that at least there are 500,000 to 1 million 
migrants bottled up in Libya that could be fodder for this 
slave trade. Evil men, whether they be criminal opportunists or 
terrorists are subjugating those in most need for profit and 
you cannot put a price on human life.
    The fact remains that we simply do not know enough about 
what is going on in Libya today and we need to get to the 
bottom of this sex slave trade that is taking place in North 
Africa.
    And I want to emphasize once again the United States needs 
to be careful before it goes into a nation and self-righteously 
overthrows the government because there are consequences. One 
of those consequences in the slave trade in Libya.
    I'll yield back to the chairman.
    Chairman Royce. Thank you, Mr. Poe.
    We go to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Royce and Ranking Member 
Engel, for holding this markup today as we consider important 
legislation that will help punish Iranian human rights abuses, 
ensure American funds do not support the Assad regime, oppose 
the abhorrent slave trade in Libya, and, I hope, bring the 
World Cup to North America.
    I am proud to support and co-sponsor each of these bills 
today. Thank you to Mr. McCaul and Mr. Engel for introducing 
H.R. 4744, the Iran Human Rights and Hostage-Taking 
Accountability Act.
    This legislation expands sanctions that already exist 
against Iranian human rights abusers to ensure that people who 
target American citizens or legal permanent residents for 
abuse, detention, or harassment will face repercussions.
    I want to thank the chairman and the ranking member, 
members of this committee for supporting my amendment to this 
legislation, which simply extends the sanctionable activity to 
include actions taken against American citizens or legal 
permanent residents regardless of where they take place.
    This bill is an important expansion of sanctions authority 
in order to target the Iranian regime to discourage its 
widespread human rights abuses which have continued unabated 
since the signing off the JCPOA.
    Many members of this committee, including myself, supported 
the JCPOA in the belief that in order to properly deal with the 
Iranian regime's support of terror worldwide and crimes against 
its own people we must deal with the nuclear question first.
    This legislation will send a clear message to the Iranian 
regime and those who support it that the United States is 
serious about combating Iran's continued aggression within Iran 
and throughout the region.
    Today, we know that Iranian troops and Iranian-backed 
militias are active throughout the region including in Syria, 
Iraq, Lebanon, Gaza, and Yemen.
    If Iranians associated with these activities commit abuses 
against Americans, we will now have one more tool to use to 
punish and hopefully discourage such behavior.
    I too want to acknowledge the presence of Mr. Levinson's 
son and thank Mr. Deutch for his passionate and sustained 
efforts to bring attention to the outrageous behavior by the 
Iranian regime and to secure Mr. Levinson's return.
    I'll close by saying that I remain strongly committed to 
the implementation of the Iran nuclear agreement. We are able 
to bring such strong actions to bear against Iran precisely 
because we have the nuclear framework in place.
    I hope the President understands that if we walk away from 
the Iran deal now, Iran will have nothing stopping it from 
pursuing a nuclear weapon. This is simply a risk we cannot 
take.
    I'd also like to express my support for Congresswoman Bass' 
resolution H.R. 644, which strongly condemns the slave auctions 
of migrants and refugees in Libya.
    U.S. should not sit silently while desperate and 
traumatized people fleeing violence and seeking salvation are 
victimized to enslavement, forced detention and physical and 
sexual violence.
    It's imperative that the sale and exploitation of human 
beings for profit be eradicated and that those responsible be 
held fully accountable.
    The United States, working in collaboration with the 
international community, should do everything in our power to 
assist, and for that reason I am proud to support H. Res. 644.
    I am also glad to support H.R. 4681, No Assistance for 
Assad Act, and thank Ranking Member Engel for his leadership in 
introducing this legislation.
    Since 2001, the Syrian people have witnessed destruction, 
violence, and a shocking disregard for their fundamental human 
rights. Our policy of foreign assistance for Syria must focus 
on early recovery, reconstruction, and stabilization for a 
democratic non-Assad-led Syrian nation.
    We must ensure that American money does not in any way 
support the murderous Assad regime and implementation of this 
bill will do just that.
    The actions required of the Government of Syria by this 
legislation would make a substantial step forward in a safer, 
more stable nation, region, and world.
    And, finally, I am proud to support H. Con. Res. 111 
supporting the efforts of the United Bid Committee to bring the 
2026 World Cup competition to Canada, Mexico, and the United 
States.
    Sports are an important way to increase cooperation and 
good will among nations and cultures. The FIFA World Cup is the 
biggest single sporting event competition in the world and 
every 4 years the contest brings together 32 teams from 32 
nations who compete on the pitch and inspire millions of 
viewers around the world.
    Hosting the World Cup in North America with our neighbors 
would be great for our economy and provide us an opportunity to 
showcase our hospitality alongside our neighbors to the north 
and south.
    And I'll add, of course, that Rhode Island would make an 
excellent location for the World Cup. We are known for, of 
course, our award-winning cuisine, our great oceans, our 
beautiful summer weather, and I know we will compete in this as 
well.
    But I want to thank all my colleagues for the important 
measures that are brought before this committee and yield back 
the balance of my time.
    Chairman Royce. And the tomato sauce.
    Thank you, Mr. Cicilline, and we go now to Dan Donovan of 
New York.
    Mr. Donovan. Thank you, Mr. Chairman. I'd like to speak 
about two of today's bills--the No Assistance for Assad Act and 
the Iran Human Rights and Hostage-Taking Accountability Act.
    With regard to the No Assistance for Assad Act, Assad alone 
is not responsible for the rampage upon his own country. Other 
nations, such as North Korea, Iran, Russia, and China continue 
to lend a helping hand to Assad's reign of terror.
    The United Nations discovered that North Korea has been 
shipping chemical weapon components to Syria. Over 2,100 
Iranian forces have died in the Syrian conflict.
    Russia's involvement in Syria is well known and China has 
pledged $2 billion in construction and provided military 
support. The humanitarian effect of Assad's war on his own 
population is staggering.
    Physical reconstruction is estimated to cost in the range 
of $200 billion to $350 billion. But there is no amount of 
money that can heal the wounds Assad has inflicted.
    Meanwhile, the United States has spent a staggering $7.4 
billion in Syria since 2011 and there is still no end in sight 
to the violence committed by this vile dictator.
    Assad, North Korea, Iran, Russia, and China have 
significantly contributed to the death and destruction in 
Syria. They should be the ones paying to get Syria out of it.
    That's why I support the No Assistance for Assad Act, H.R. 
4681, which places stringent conditions on U.S. assistance to 
Syrian reconstruction.
    Mr. Chairman, I also look forward to the day when the 
Iranian regime comes to the conclusion that its international 
terrorist activities and appalling violations of human rights 
is reprehensible.
    Until then, the United States must continue to apply 
maximum pressure, which is why I support the Iran Human Rights 
and Hostage-Taking Accountability Act, H.R. 4744.
    The list of Iran's human rights abuses is too long for me 
to list in my brief statement. This bill, among other things, 
expresses the sense of Congress that the United States should, 
one, deny the Government of Iran the ability to continue to 
oppress the people of Iran and to use violence and executions 
to silence pro-democracy protestors; two, support efforts made 
by the people of Iran to promote the establishment of basic 
freedoms that build the foundation for the emergence of a 
freely-elected, open, noncorrupt, and democratic political 
system; and three, help the people of Iran produce, access, and 
share information freely and safely via the internet and other 
media.
    I am proud to work on this bipartisan effort to stand with 
the people of Iran, with my fellow Members of Congress, and the 
President.
    And I yield back the remainder of my time.
    Chairman Royce. Thank you. We go to Mr. Adriano Espaillat 
from New York.
    Mr. Espaillat. Thank you, Mr. Chairman and Ranking Member 
Engel. Thank you for continuing the bipartisan work of this 
committee.
    I am a co-sponsor of all four bills before us today. I was 
an original co-sponsor of the House Resolution 644 to condemn 
slave auctions of migrants and refugees in Libya. Slavery is an 
ugly part of our history and that's exactly where it should 
be--on the shelves of history books.
    CNN recently did an undercover report on the slave auctions 
outside of the Libyan capital of Tripoli. The footage sent a 
chilling down my spine, Mr. Chairman. These human beings are 
being referred to as merchandise and sold for a few hundred 
dollars. This is horrible and wrong.
    The bill before us today is a good first step in condemning 
these slave auctions and expanding sanctions against those 
responsible for these slave auctions.
    It is my hope that the new Secretary of State will monitor 
this situation closely.
    H.R. 4681, also known as the No Assistance for Assad Act, 
will limit assistance for areas of Syria that are under Assad's 
control. Since 2011, more than 500,000 people have been killed 
and over 11 million have been displaced.
    Reconstruction could cost as much as $350 billion. But we 
need to ensure that any U.S. assistance comes with the 
assurance that the Assad regime will not get a hold of this 
money, that attacks against civilians cease immediately, that 
human rights abusers are removed from positions of authority.
    H.R. 4744, the Iran Human Rights and Hostage-Taking 
Accountability Act will target questionable actors in Iran and 
aim to curb the litany of human rights atrocities.
    This bill explicitly details the United States Government's 
support of the Iranian people who for decades have faced a 
government that arrests, imprisons, and tortures political 
rivals.
    Additionally, this legislation condemns the Iranian 
Government for taking U.S. hostages, a practice that is in 
direct violation of international law.
    One of the captive Americans, New York City native Robert 
Levinson, was detained in Kish Island in Iran more than 11 
years ago, making him the longest-held hostage in U.S. history.
    On March 11, 2018, an Iranian spokesperson said that Tehran 
has merely assumed a humanitarian role on this issue, 
repudiating past statements from Iranian officials pronouncing 
the country's willingness to actively aid the U.S. in locating 
Mr. Levinson.
    Considering the proposed sanctions in this bill, I urge the 
Government of Iran and its leaders to cease all suppressive 
tactics targeting political dissidents, terminate all support 
of terrorist groups such as Hezbollah, and immediately return 
every U.S. citizen held hostage in custody in Iran.
    Thank you, Mr. Chairman, and I yield back the remaining 
part of my time.
    Chairman Royce. Thank you, Mr. Espaillat.
    We go to Adam Kinzinger of Illinois.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, I am not 
going to take the whole time. I do want to thank you and the 
committee for bringing up the No Assistance for Assad Act.
    Today is the seventh anniversary of the beginning of the 
war. Over 500,000 Syrians have been killed, including 50,000 
children, by Assad and his Russian and Iranian backers.
    Those brutal regimes don't just target critical 
infrastructure, like hospitals and schools, with their 
artillery strikes. But the Assad regime continues to use 
chemical weapons including chlorine gas to kill his own 
citizens with impunity.
    We have seen too many images of young children gasping for 
their lives after a chemical weapon was dropped on them. The 
United States has provided more than $7.4 billion of 
humanitarian aid to the Syrian people since the beginning of 
the Syrian war.
    While the end of the conflict has yet to be determined when 
the violence does end, we will have an obligation to help the 
innocent people of Syria recover from the rampage of Bashar al-
Assad.
    The No Assistance for Assad Act, which I proudly introduced 
with my colleagues--the chairman, the ranking member, and Mr. 
Boyle--would mandate that no early recovery funds be available 
to territories under control of the Assad government or for 
their associated forces including Iran and Russia.
    They broke it, so as long as Assad is in power they are 
going to own it. This legislation ensures that the United 
States will continue to provide early recovery and 
reconstruction aid to those areas free and democratic in Syria.
    This also requires nine very clear, very tough conditions 
to be met for the President to release aid to restricted parts 
of Syria.
    As I've said before, in order to prevent the rise of the 
next generation of ISIS or terrorists, we must ensure that 
Bashar al-Assad is removed from power.
    I believe that the United States of America was put on 
Earth to be an example of self-governance and order in a world 
that's drowning in strongmen, oppression, and poverty.
    Stopping Assad's genocide in Syria is part of our mission 
statement and I'll continue to do what I can to support that 
mission.
    I urge my colleagues to join me in supporting the No 
Assistance for Assad Act and with that, Mr. Chairman, I'll 
either yield or yield back.
    Chairman Royce. Thank you, Adam.
    We will go to--who else is seeking time?
    Mr. Castro, were you seeking time? No.
    Oh, Dina Titus of Nevada. Thank you.
    Ms. Titus. Well, thank you, Mr. Chairman.
    I too support all four of the bills that are up today and I 
thank the sponsors for bringing these important bills before 
us.
    I am a co-sponsor of House Resolution 644, which strongly 
condemns the slave auctions and exploitation of migrants and 
refugees in Libya.
    Human trafficking has become a lucrative business in Libya, 
and the United States must do its part to condemn and stifle 
this industry.
    Human trafficking generates an estimated $150 billion a 
year in profits worldwide. So I am glad to see that there are 
bipartisan efforts to combat this problem.
    My colleagues on this committee, Representatives Wagner, 
Bass, Smith, Frankel, and I led a letter--we were joined by 80 
other members of the House--to the Appropriations Committee 
supporting strong funding for anti-trafficking programs at the 
Department of State and USAID.
    These programs protect marginalized communities that are 
especially vulnerable to labor and sex trafficking, 
particularly migrants, women, and young people.
    The State Department's Trafficking in Persons report is a 
critical diplomatic tool that, when used appropriately, can 
expose abuses and contribute to significant improvements around 
the world.
    The Department's 2017 report found that in Libya, migrants, 
including potential trafficking victims, were arbitrarily 
detained for indefinite periods of time with no access to legal 
aid and subjected to sexual violence, forced labor, and other 
human rights abuses.
    House Resolution 644 will send a strong message from our 
committee and from Congress that slave auctions and forced 
labor are absolutely unacceptable and that human rights of 
migrants and refugees demand the attention of the United States 
and the international community and that's why I strongly 
support it.
    Second, House Concurrent Resolution 111, which supports the 
efforts of the United Bid Committee to bring the 2026 FIFA 
World Cup competition to Canada, Mexico, and the United States 
and encourages the President to support this bid reaffirms the 
strong trilateral relationship among our three countries.
    I serve as co-chair of the Travel and Tourism Caucus. We 
work to promote the travel and tourism industry and ensure that 
this vital sector of our economy continues to thrive because it 
plays an intrinsic role in the economy not only in the nation 
but of my district of Las Vegas.
    If the bid committee is selected to host the 2026 World 
Cup, Las Vegas, with 20 of the 30 largest hotels in the world, 
a new Raiders stadium, and a dedicated local fan base is in the 
running to be selected as one of the 12 cities to host games 
and we look forward to that.
    Mexico and Canada are not just neighbors but they are key 
allies, economic and security partners, and the United States' 
top tourist-generating countries.
    Unfortunately, we have seen a decrease in the arrival of 
Mexican visitors in 2017 compared to 2016, due in no small part 
to the rhetoric coming from the White House.
    North America's bid to host the 2026 World Cup would boost 
tourism and help foster the relationship among our three 
countries.
    At a time when the administration once again proposes a 
drastic 30 percent cut to the international affairs budget, 
these kinds of soft diplomatic initiatives can help reaffirm 
important relationships with our allies.
    So I strongly support this bill as well and I thank you, 
Mr. Chairman, and yield back.
    Chairman Royce. Thank you.
    We go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and I want to thank 
Representative Kinzinger and Ranking Member Engel for their 
work on H.R. 4681, the No Assistance for Assad Act, as well as 
Chairman McCaul and Ranking Member Deutch for their work on 
H.R. 4744, and I support all the legislation.
    As a co-sponsor of these pieces of legislation, I believe 
that they are vitally important steps if we want to have any 
chance of a peaceful and stable future in the Middle East but 
particularly in this region of the Middle East.
    As has been mentioned a number of times, today marks the 
seventh anniversary of the Syrian people's quest for democracy 
and for the last 7 years President Assad has committed 
monstrously brutal human rights crimes and his barbarism has 
been sustained by both Tehran and Moscow.
    Tehran has been propping up Assad to bolster its influence 
in Syria, train its proxy forces, threaten Israel, and secure a 
so-called land bridge to the Mediterranean.
    In the interest of time, I will submit the rest of my 
statement for the record and will just conclude by saying it's 
time that we use all mechanisms, all tools available to us to 
ensure that Tehran does not continue to undermine peace in the 
region and I would strongly urge all my colleagues to support 
all these bills.
    And I yield back.
    Chairman Royce. Thank you, Mr. Chabot.
    Any other members seeking time on the committee?
    Mr. Garrett. Mr. Chairman?
    Chairman Royce. Mr. Garrett of Virginia.
    Mr. Garrett. Mr. Chairman, I want to speak specifically and 
directly to the amendment in the nature of the substitute 
offered by Mr. Poe from Texas as it relates to H.R. 4744 and 
the capacity in which it outlines offenses against human rights 
and basic decency by the Iranian regime and specifically point 
out that in, I believe, H.J.R. 188 earlier passed this year 
this body had the willingness to tell the truth as it relates 
to who the victims primarily but not exclusively were of the 
atrocities that occurred in Iran in and around 1988 and that is 
to point out the reality that the bulk of the victims of those 
offenses were affiliated with the MEK.
    And now there is push back, essentially, on telling the 
truth from somewhere, perhaps on staff or externally. I don't 
know. But it's a dark damn day, sir, when this committee is not 
willing to tell the truth to the world.
    Now, let me be clear, Mr. Chairman, and again, my tone 
reflects no animosity toward any individual. But the idea that 
the Foreign Affairs Committee of the House of Representatives 
of the United States would be afraid to acknowledge a reality 
because it might not be politically expedient as to who the 
victims of the atrocities committed by this horrific Iranian 
regime are and were.
    In my opinion, which I try to make clear as frequently and 
as loudly as I possibly can, is that just about any alterative 
on the ground as it relates to the governance of the nation of 
Iran is preferable to the status quo.
    But I don't have a preference as it relates to the MEK or 
their rival parties. I don't. So I am not sitting here trying 
to curry favor with these amazing brave people who show up in 
these yellow coats.
    I am sitting here saying that it's an existential threat 
not only to the life of individuals who might have the temerity 
to protest conditions in Iran but to the region, and ultimately 
if the JCPOA works out the way I think it will to the world, to 
stand by and acknowledge this Iranian regime's malfeasance but 
not all of it, but not the scope of it, but not with 
specificity.
    And so, again, I mean no ill will toward any in particular 
person. But we know what happened--it took us 10 years to 
figure it out--in 1988 in Iran.
    We know who the victims were and we should address that 
with specificity because we are the House of Representatives of 
the United States of America, and if we are not willing to look 
the world in the eyes and tell them the truth, God knows who 
will.
    And so I don't know much--how much more vehement I could be 
in support of Mr. Poe's amendment, and this isn't about picking 
sides except for to say that the mullahs in Iran are dangerous 
to the world.
    And so I hope that members of this committee on both sides 
of the aisle will join me in acknowledging the total truth as 
it relates to the reality of what occurred in Iran these many 
years ago because it's important that somebody in the world be 
willing to do what's right and not be afraid by political 
considerations, and it ought to be us.
    Thank you.
    Chairman Royce. I am going to thank the gentleman but I am 
going to recognize myself at this time.
    First and foremost, this bill sanctions senior Iranian 
officials for taking American hostages and for its human rights 
abuses against the Iranian people.
    The MEK is one of many groups that the Iranian regime has 
abused. There is no question that they have suffered very 
greatly, and that's why this bill--if you read the bill--and 
why Judge Poe's excellent amendment discusses in detail the 
1988 massacre of tens of thousands of innocent people because 
of their political affiliations.
    But they are not the only ones massacred on an ongoing 
basis because of their political affiliations. It's not about 
one group and it calls for an investigation of all of those 
massacred including the MEK--calls for an investigation of all 
of those massacred and full accounting for the families of the 
victims.
    And it also discusses Iran's abuse of numerous other 
political dissidents and ethnic and religious minorities. I 
think you and I both have plenty of examples of sitting with 
family of Baha'i or Zoroastrians--you name the religion--that 
has suffered over the past four decades and why it calls for 
the Iranian regime to be held accountable.
    Now, with this bill we are trying to speak directly to the 
Iranian people to tell them that we stand in solidarity with 
them against their oppressive regime.
    If we start playing politics by naming certain parties and 
not others, we muddle this key message. So in the end, this is 
about more than one group. It is about the people of Iran. It 
is about their ongoing human rights abuses and taking concrete 
action to stop it.
    So again I thank the gentleman. Any other members seek 
time?
    If not, hearing no further requests for recognition, the 
question occurs on items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
measures considered en bloc are agreed to.
    Without objection, the measures considered en bloc are 
ordered favorably reported as amended.
    Staff is directed to make any technical and conforming 
changes and the Chair is authorized to seek House consideration 
under suspension of the rules.
    That concludes our business for today. I want to thank, of 
course, Ranking Member Engel but also all of our committee 
members for their contributions and assistance with today's 
markup.
    The committee stands adjourned.
    [Whereupon, at 10:30 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record
         
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         
                                  [all]


</pre></body></html>
